      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 24, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Diann M. Saltman/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicare Payments Exceeding Charges for Outpatient Services
               Processed by Noridian Administrative Services, LLC, in Jurisdiction 3 for the
               Period January 1, 2006, Through June 30, 2009 (A-07-10-04163)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by Noridian Administrative Services, LLC
(Noridian), in Jurisdiction 3. We will issue this report to Noridian within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov, or Patrick J. Cogley, Regional
Inspector General for Audit Services, Region VII, at (816) 426-3591 or through email at
Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-10-04163.


Attachment
                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106
May 26, 2011

Report Number: A-07-10-04163

Mr. Michael Hamerlik
President and Chief Executive Officer
Noridian Administrative Services, LLC
900 42nd Street South
Fargo, ND 58103

Dear Mr. Hamerlik:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by Noridian Administrative Services, LLC, in Jurisdiction 3 for
the Period January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-10-04163 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael Hamerlik


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL


REVIEW OF MEDICARE PAYMENTS
    EXCEEDING CHARGES FOR
     OUTPATIENT SERVICES
    PROCESSED BY NORIDIAN
ADMINISTRATIVE SERVICES, LLC,
       IN JURISDICTION 3
FOR THE PERIOD JANUARY 1, 2006,
    THROUGH JUNE 30, 2009




                       Daniel R. Levinson
                        Inspector General

                           May 2011
                         A-07-10-04163
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

Effective July 2006, Noridian Administrative Services, LLC (Noridian), became the Medicare
contractor for Jurisdiction 3 in six States. During our audit period (January 2006 through
June 2009), approximately 74.5 million line items for outpatient services were processed in
Jurisdiction 3, of which 1,913 line items had (1) a Medicare line payment amount that exceeded
the line billed charge amount by at least $1,000 and (2) 3 or more units of service . (A single
Medicare claim from a provider typically includes more than one line item. In this audit we did
not review entire claims; rather, we reviewed specific line items within the claims that met these
two criteria. Because the terms “payments” and “charges” are generally applied to claims, we
will use “line payment amounts” and “line billed charges.”)

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
Noridian made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 1,913 selected line items for which Noridian made Medicare payments to providers for
outpatient services during our audit period, 186 were correct. Providers refunded overpayments
on 108 line items totaling $2,173,056 prior to our fieldwork. The remaining 1,619 line items



                                                 i
were incorrect and included overpayments totaling $5,778,429, which the providers had not
refunded by the beginning of our audit.

Of the 1,619 incorrect line items:

   •    Providers reported incorrect units of service on 695 line items, resulting in overpayments
        totaling $3,332,572.

   •    Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes for 796 line items, resulting in overpayments totaling $1,913,184.

   •    Providers used HCPCS codes that did not reflect the procedures performed for 108 line
        items, resulting in overpayments totaling $437,131.

   •    Providers billed for unallowable services on 17 line items, resulting in overpayments
        totaling $92,333.

   •    Providers could not provide the supporting documentation for three line items, resulting
        in overpayments totaling $3,209.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Noridian:

    •   recover the $5,778,429 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take. Our draft report included a
fourth recommendation regarding the review and refund of 29 line items that were outstanding at
the time of issuance of the report. For this recommendation, Noridian stated that it had reviewed
the 29 line items and forwarded the results to us. Noridian’s comments are included in their
entirety as the Appendix.



                                                   ii
OFFICE OF INSPECTOR GENERAL RESPONSE

Providers have since adjusted the 29 line items that were outstanding at the time of issuance of
our draft report and have consequently refunded an additional $134,975 to Noridian. For this
final report, we have revised our findings and our first recommendation to reflect the additional
claim lines adjusted and amounts recovered, and we have removed the fourth recommendation,
as it is no longer relevant.




                                                iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        Noridian Administrative Services, LLC ......................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology ................................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 4
        Incorrect Number of Units of Service ............................................................................. 4
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes ............................... 5
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 5
        Services Not Allowable for Medicare Reimbursement .................................................. 6
        Unsupported Services ..................................................................................................... 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ...................................................................................................... 6

      NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS ..................................7

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................7

APPENDIX

      AUDITEE COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (also known as the
line item). Providers should use the appropriate Healthcare Common Procedure Coding System
(HCPCS) codes and report units of service as the number of times that a service or procedure
was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare
administrative contractors (MAC) between October 2005 and October 2011. Most, but not all, of the MACs are
fully operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
MAC, whichever is applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.



                                                          1
Noridian Administrative Services, LLC

Effective July 2006, Noridian Administrative Services, LLC (Noridian), became the Medicare
contractor for Jurisdiction 3 in six States: Arizona, Montana, North Dakota, South Dakota, Utah,
and Wyoming. 3 During our audit period (January 2006 through June 2009), approximately
74.5 million line items for outpatient services were processed in Jurisdiction 3.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
Noridian made to providers for outpatient services were correct.

Scope

Of the approximately 74.5 million line items for outpatient services that Noridian processed
during the period January 2006 through June 2009, 1,913 line items had (1) a Medicare line
payment amount that exceeded the line billed charge amount by at least $1,000 and (2) 3 or more
units of service. 4

We limited our review of Noridian’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

Our fieldwork included contacting Noridian, located in Fargo, North Dakota, and the 92
providers in Jurisdiction 3 that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;




3
 Prior to July 31, 2006, providers processed Medicare outpatient claims through separate fiscal intermediaries. On
July 31, 2006, Noridian became the Medicare contractor for these States and is therefore responsible for collecting
any overpayments and resolving the issues related to this audit.
4
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”


                                                          2
    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by at least
        $1,000 and (2) the line had 3 or more units of service; 5

    •   identified 1,913 line items totaling approximately $9.6 million that Medicare paid to 92
        providers;

    •   contacted the 92 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with Noridian; and

    •   discussed the results of our review with Noridian on January 24, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 1,913 selected line items for which Noridian made Medicare payments to providers for
outpatient services during our audit period, 186 were correct. Providers refunded overpayments
on 108 line items totaling $2,173,056 prior to our fieldwork. The remaining 1,619 line items
were incorrect and included overpayments totaling $5,778,429, which the providers had not
refunded by the beginning of our audit.

Of the 1,619 incorrect line items:

    •   Providers reported incorrect units of service on 695 line items, resulting in overpayments
        totaling $3,332,572.

    •   Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes for 796 line items, resulting in overpayments totaling $1,913,184.

    •   Providers used HCPCS codes that did not reflect the procedures performed for 108 line
        items, resulting in overpayments totaling $437,131.
5
 For this audit, we reviewed those line items that met the stated parameters. We applied these parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $1,000.



                                                       3
       •   Providers billed for unallowable services on 17 line items, resulting in overpayments
           totaling $92,333.

       •   Providers could not provide the supporting documentation for three line items, resulting
           in overpayments totaling $3,209.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “… when HCPCS codes are required for
services, the units are equal to the number of times the procedure/service being reported was
performed.” 6 If the provider is billing for a drug, according to chapter 17, section 70, of the
Manual, “[w]here HCPCS is required, units are entered in multiples of the units shown in the
HCPCS narrative description. For example, if the description for the code is 50 mg, and 200 mg
are provided, units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 695 line items, resulting in overpayments totaling
$3,332,572. The following examples illustrate the incorrect units of service:

       •   One provider billed Medicare for 25 line items with the incorrect service units. Rather
           than billing between 7 and 8 service units (the correct range for the HCPCS codes
           associated with these line items), the provider billed between 70 and 80 service units.
           These errors occurred because the provider’s chargemaster 7 was incorrect. As a result of

6
 Prior to CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5, of the Manual.
7
    A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers.


                                                           4
         these errors, Noridian paid the provider $552,042 when it should have paid $45,800, an
         overpayment of $506,242.

    •    Another provider billed Medicare for five line items with incorrect service units. Rather
         than billing between 6 and 16 service units, the provider billed between 400 and 6,000
         service units. These errors occurred because the provider’s chargemaster was incorrect.
         As a result of these errors, Noridian paid the provider $200,312 when it should have paid
         $1,008, an overpayment of $199,304.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service claimed and incorrect HCPCS
codes on 796 line items. These errors resulted in overpayments totaling $1,913,184. For
example, one provider incorrectly billed Medicare for 8 units of service for a 3.75 milligram
(mg) dose of a drug used for various cancer treatments. The provider should have billed for
4 units of service for a 7.5 mg dose of this drug for use in the treatment of prostate cancer. 8
Similar errors occurred on a total of 331 line items submitted by this provider. As a result of
these errors, Noridian paid the provider $945,176 when it should have paid $234,944, an
overpayment of $710,232.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed for 108 line items,
resulting in overpayments totaling $437,131. The following examples illustrate the incorrect
HCPCS codes used:

    •    One provider billed Medicare for nine line items with an HCPCS code for an injection of
         Galsulfase 9 rather than using the correct HCPCS code involving the administration of the
         chemotherapy agent Nelarabine, the procedure actually performed. As a result of these
         errors, Noridian paid the provider $155,688 when it should have paid $41,041, an
         overpayment of $114,647.

    •    Another provider billed for 17 line items with an HCPCS code for a cancer treatment
         drug rather than using the correct HCPCS code involving the administration of a cancer
         treatment drug, the procedure actually performed. As a result of these errors, Noridian
         paid the provider $55,861 when it should have paid $149, an overpayment of $55,712.




8
 In this situation, there are two separate HCPCS codes for the same drug. The designation of correct dosage and
units of service is based on the clinical indication that necessitates the drug use.
9
 Galsulfase is an enzyme that helps to decrease a substance in the body that can cause cell, tissue, and organ
problems.



                                                          5
Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for 17 line items for which the services rendered were not
allowable for Medicare reimbursement, resulting in overpayments totaling $92,333. As an
example of the unallowable services, one provider billed Medicare for 15 line items that were
unrelated to outpatient services. Specifically, the provider incorrectly billed Medicare outpatient
services for dental procedures that are not covered by Medicare. For one such procedure, the
provider billed for the extraction of a tooth, which is not a covered procedure according to the
Medicare Benefit Policy Manual, Pub. No. 100-02, chapter 15, section 150. As a result of these
errors, Noridian paid the provider $85,833 when it should have paid $0, an overpayment of
$85,833.

Unsupported Services

Two providers billed Medicare for three line items for which they could not provide supporting
documentation. The providers agreed to cancel the claims associated with these line items and
refund the $3,209 overpayment that was received.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect the overpayments. In
effect, CMS relied on providers to notify the Medicare contractors of incorrect payments and on
beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 10

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that Noridian:

     •   recover the $5,778,429 in identified overpayments,

     •   implement system edits that review line item payments that exceed billed charges by a
         prescribed amount, and

10
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         6
    •   use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take. Our draft report included a
fourth recommendation regarding the review and refund of 29 line items that were outstanding at
the time of issuance of the report. For this recommendation, Noridian stated that it had reviewed
the 29 line items and forwarded the results to us. Noridian’s comments are included in their
entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Providers have since adjusted the 29 claim lines that were outstanding at the time of issuance of
our draft report and have consequently refunded an additional $134,975 to Noridian. For this
final report, we have revised our findings and our first recommendation to reflect the additional
claim lines adjusted and amounts recovered, and we have removed the fourth recommendation,
as it is no longer relevant.




                                                   7
APPENDIX
                                                                                                             Page 1 of 4



                              APPENDIX: AUDITEE COMMENTS 





~                                             

NOR/DIANe                                                                             Paul O'Donnell
                                                                                     Vice President
Administrative Services LLC                                                          Medicare OperaUons
                                                                                     900 4200 Street South
                                                                                     Fargo, ND 58103
                                                                                     701·277-2401
                                                                                     FAX: 701·271·5150
                                                                                     paul.odonneliOnorldlan.com




        February 25,2011

        Patrick J. Cogley
        Regional Inspector General for Audit Services
        Office of Inspector General
        Region VII
        601 East 12th Street, Room 0429
        Kansas City, Missouri 64106

        RE: Report Number A-07-10-04163

        Dear Mr. Cogley:

        Thank you for the opportunity to respond to the draft report ofthe U,S. Department of
        Health & Human Services, Office of Inspector General (01G) dated January 27,2011,
        entitled, Review ofMedicare Payments Exceeding Charges for Outpatient Services
        Processed by Noridian Administrative Services. ac. in Jurisdiction 3 for the Period of
        January 1. 2006. Through June 30, 2009. We concur with the recommendations made by
        the 010, Noridian Administrative Services, LLC (NAS) has provided our responses to
        these recommendations within the contents of this letter. Many of the action plans that
        NAS has planned to reduce future overpayments are contingent on the 010 providing
        NAS with a complete listing ofthe claims included in this audit. Without a complete
        listing NAS will be unable to perform data analysis and prioritize the specific aberrancies
        for correction. The NAS actions will be an ongoing effort due to the extent of activities
        planned and the time that can be associated with the research, development, testing and
        implementation of certain initiatives.

       Upon receipt of the audit claims data we will review the CPTIHCPC codes identified in
       this audit and determine which codes are now included on the published Medical
       Unlikely Edits (MUE) listing and have unit ofservice limits. These MUE's are also edits
       in the standard Part A system, FISS, and should assist in minimizing unit of service
       overpayments in the future. For those codes not included in either the published or non­
       published MUE listings, NAS will explain our initiatives/plans to reduce future
       overpayments in the response below.

       It is important to note that future overpayments may still be possible even after NAS has
       completed our plans of action due to the fact that Medicare contractors are not funded to
                                                                                             Page 2 of 4




perform 100% complex review of claims. Without a comparison ofmedical records and
coding on 100% of claims billed, there is the potential for overpayments (and
underpayments) resulting from billing incorrect procedure codes, units of service and
other claims payment indicators. NAS will do all we can within oW'scope and funding to
reduce overpayments. An important tool or step in this process that NAS has considered
is to make referrals to the Program Safeguard Contractor (PSC), Recover Audit
Contractors (RAC) and CMS as a method ofbusiness collaboration.

OIG RECOMMENDATIONS:

   • 	 Recover the $5,643,454 in identified overpayments
              NAS Response: NAS concurs with the reconunendation that all
              overpayments identified are to be collected. NAS has completed
              collections of these overpayments either by provider refund check or
              adjustment made by the provider. No further action is required.


   • 	 Determine the amount of overpayment for the 29 incorrect line Item
       payments and recover that amount
              NAS Response: NAS reviewed the 29 line items and forwarded results to
              the 010 on 1anuary 25, 2011. Our understanding was that the 010 was
              going to review to determine what next steps will be taken.


   •   Implement system edits that review line item payments that exceed billed
       charges by a prescribed amount
              NAS Remonsej NAS has established an Outpatient Assessment Task
              Force (OATF) of seasoned Medicare staff that will be reviewing the
              claims data from the OIO's audit. Team Members include: Contractor
              Medical Director (CMD), CMD Assistant (RN), Medical Review Manager
              (RN) and/or Team Leader (RN), Part A Claims Manager and/or Team
              Leader and Part A Systems Manager and/or Team Leader and others as
              needed. The OATF will perform the following activities and as much as
              possible utilize the already established (and funded) processes and
              procedures within the current NAS Medicare infrastructure:
                  • 	 NAS will write a User Project Action Request (p AR) and submit
                      to the data center to assess the feasibility of creating a national
                      FISS edit that would address line item payments exceeding billed
                      charges. Ifthe request is not a feasible option NAS will evaluate if
                      user controlled edits in FISS would be a viable option. NAS'
                      preference would be to have the FISS maintainer and CMS support
                      to implement a national system edit in FISS.
                  • 	 To establish a priority ranking for implementing potential actions,
                      NAS will utilize the specific data from this audit for the
                      assessment of:
                          • 	 overpayments dollars per claim (highest to lowest)
                                                                                            Page 3 of4




                       • 	 units billed (highest to lowest)
                        • 	 most frequently billed codes (highest to lowest)
                        • 	 specific providers included in this audit (highest claim
                            volume to lowest)
               •	   Perform a review ofunallowable services and determine if a User
                    PAR. should be created to submit to the data center for a standard
                    system edit. This would be the best solution for many ofthese
                    codes so the correction would be applicable for all Part A
                    Medicare contractors. If not possible, consider local edits as
                    appropriate.
               •	   Perform a review ofunit of services allowed and determine if a
                    User PAR should be created to submit to the data center for a
                    standard system edit. If not possible, consider local edits as
                    appropriate. NAS would consider returning the claim to the
                    provider (RTP) to verify if the units billed are accurate.
               •	   As appropriate, the CMD will assess if a new Local Coverage
                    Detennination (LCD) is warranted or changes to any existing
                    LCD's are needed.
               •	   Assess high overpayment codes in addition to the annual Medical
                    Review Strategy (which would result in claims to be reviewed at
                    the complex level by Medical Review nurses)
               •	   Refer recommendations for post-pay reviews to the Recovery
                    Audit Contractor (RAC) per the new CMS direction from TDL
                    dated 2117/11.
               •	   As appropriate refer recommendations to the PSC.
               •	   NAS' two CMD's are members of the National MUE workgroup
                    committee and as appropriate will elevate problematic codes to the
                    committee for review and consideration of new MUE edits.


• 	 Use the results of this audit in its provider edueation aetivities
           HAS Response: NAS has several plans ofaction that will include various
           methods of provider education. The OATF will update the Provider
           Outreach and Education team with specific education topics as they relate
           to the data assessed. NAS plans the following provider education
           activities:
               • 	 Develop provider training on the 'hot spots' identified through
                    assessments.
               • 	 Develop tools/resources on our website as a resource for providers.
               • 	 30 minute online provider education sessions (as applicable).
               • 	 Provider education articles that will be distributed via the list-serv
                    and posted to the NAS website.
               • 	 Providers with an error rate of $5,000 and above will be educated
                    on an individual basis and the provider will be required to submit a
                    corrective action plan to NAS.
                                                                                           Page 4 of4




Please advise if additional infonnation or further clarification is needed on any of our
response. Please contact Paul O'Donnell, Medicare Operations Vice President, at (701)
277-2401 or through email atPau1.0·Donnell@noridian.com


Sincerely,

/s/ PaulO 'Donnell

Paul O'Donnell
Vice President
Noridian Administrative Services, LLC
